ASSESSMENT
             FEDERAL DIGITAL SYSTEM (FDSYS)
REPORT       INDEPENDENT VERIFICATION AND
09-01          VALIDATION (IV&V) – FOURTH
                QUARTER REPORT ON RISK
                MANAGEMENT, ISSUES, AND
                     TRACEABILITY
                      November 4, 2008




        OFFICE OF INSPECTOR GENERAL
                                                                 Memorandum
                                                                  OFFICE OF THE INSPECTOR GENERAL
                            WASHINGTON, DC 20401




    DATE:      November 4, 2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT:      Federal Digital System (FDsys) Independent Verification and
               Validation (IV&V) – Fourth Quarter Report on Risk Management, Issues, and
               Traceability
               Report Number 09-01

      TO:      Chief Information Officer


      The GPO Office of Inspector General (OIG) is conducting independent verification and
      validation (IV&V) of GPO’s Federal Digital System (FDsys)1 implementation. The OIG
      contracted with American Systems2 to conduct IV&V for the public release of FDsys
      Release 1.C.3 As part of its contract with the OIG, American Systems is assessing the
      state of program management, technical and testing plans and other efforts related to the
      rollout of Release 1.C. American Systems is required by the contract to issue to the OIG
      a quarterly Risk Management, Issues, and Traceability Report, providing observations
      and recommendations on the program’s technical, schedule, and cost risks as well as
      requirements traceability of those risks and the effectiveness of the program management
      processes in controlling risk avoidance. Additionally, at the end of each FDsys release
      phase, American Systems is required to issue a release phase summary program
      management report that addresses delivery of the technical baseline per the FDsys Master
      Program Schedule and the risks that affect the schedule’s critical path to the next phase.

      The enclosed report is American Systems’ quarterly report for the period April 2008 to
      June 2008. Section 7 of the report contains five recommendations designed to improve
      current and future FDsys project efforts. Management concurred with each of the five
      recommendations. We consider the actions proposed by management responsive to each

      1
        The FDsys program is a multimillion dollar effort that GPO is funding and managing to modernize the
      GPO information collection, processing, and dissemination capabilities it performs for the three branches of
      the Federal Government.
      2
        American Systems, located in Chantilly, Virginia, is a large information technology company with
      significant experience in the realm of IV&V for Federal civilian and Defense agencies, including the
      Department of State, the Navy, and the U.S. Agency for International Development.
      3
        American Systems IV&V methodology is referenced to the framework established by the Institute of
      Electrical and Electronic Engineers (IEEE) Standard 1012-2004, the IEEE Standard for Software
      Verification and Validation.
                                                                                     2

of the recommendations. Management’s response is included in its entirety in Appendix
A of the report. The recommendations are resolved and will remain open until
management has completed the proposed actions and IV&V has completed follow-up
work. The status of each recommendation upon issuance of this report is included in
Appendix B. The final report distribution is in Appendix C.

In their response to this report (see Appendix A), management requested that a draft of
each quarterly report be provided no later than one week after the end of the reporting
period. However, the OIG’s contract with American Systems requires that each quarterly
report be delivered to the OIG no later than two weeks after the end of each quarter.
Once received, the report goes through an OIG review process before issuance to
management for comments. Therefore, it is not possible to meet management’s specific
request. We will, however, as we have done previously, continue to brief management
during each review period on findings and recommendations identified as IV&V tasks are
completed.

If you have questions concerning this report or the IV&V process, please contact
Mr. Brent Melson, Deputy Assistant Inspector General for Audits and Inspections at
(202) 512-2037, or me at (202) 512-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Attachment

cc:
Chief of Staff
Chief Management Officer
Chief Technology Officer
                                                                       ATTACHMENT


    IV&V RISK MANAGEMENT, ISSUES, AND TRACEABILITY
                      REPORT
TO:             Brent Melson, COTR
FROM:           IV&V, Jon Valett
IV&V OF:        Quarterly Report (Final – Document Number 01-036)
SUBJECT:        April – June 2008 Quarterly Report
DATE:           July 31, 2008
CC:             Dan Rose, David Harold, John Best, Chris Parr, Shawn O’Rourke


This report presents the critical technical, schedule, and cost risks identified for the
Government Printing Office (GPO) Federal Digital System (FDsys) Program.
Specifically, it provides a high-level overview of the key risks and issues that IV&V has
identified within the last quarter. This report also addresses IV&V task reports covering
Security Requirements and the Risk Management Plan and Program that were performed
over this same time period. Also during this quarter, IV&V reviewed a Quick Look
Assessment of the GPO FDsys Development Approach provided by Flatirons Solutions, a
Systems Engineering and Technical Assistance (SETA) contractor hired by GPO. The
results of that review are contained in this report.

This is the fourth IV&V quarterly report and covers the period from April 2008 to June
2008. It includes information taken from the following:

   IV&V Task Report, Evaluate FDsys System Security Plan, April 22, 2008;
   IV&V Task Report, Design Phase Risk Analysis, July 2, 2008; and
   IV&V Quick Look Report – Draft, Evaluate Initial FDsys Release 1C.2 Program
    Review Meetings, July 7, 20084.

Over the last quarter several areas of the program appear to be making significant
progress:

       The risk program has been restarted (reference Section 5).
       Configuration management activities are moving in the right direction. IV&V will
        review the configuration management plan and adherence to process during the
        next quarter.
       Test planning is underway. IV&V will review test plans during the next quarter.
       The PMO designated a team to begin the planning of the training efforts needed to
        support the deployment of FDsys R1C2. A high level training schedule and list of
        planned deliverables has been presented. An initial Training Plan has been
4
  The referenced report was never issued as a final because all of the findings of the draft
report are included in this quarterly. The draft report included references to a Program
Review meeting that was held on July 1, 2008. The analysis of that meeting is included in
this report.
       developed. This early attention to system training and organizational change will
       be critical to stakeholder acceptance of FDsys when it is deployed. At this point,
       however, the existing R1C2 documentation/design details are insufficient to
       develop detailed training materials (e.g., manuals that contain step-by-step
       procedures to perform tasks).
      The conduct of formal review meetings on a regular basis (e.g., monthly) is very
       beneficial to the FDsys Program. These meetings provide a forum for the FDsys
       team to coordinate activities, evaluate progress, and discuss problem areas. Each
       meeting includes an agenda that encompasses the current tasks being performed.
       Representatives from the Program Management Office (PMO), Harris, and the
       other PMO Contractors present information related to their efforts.
       Questions/concerns (if any) from the team members are addressed.


1. Technical Risks Identified

During the last quarter several technical risks were identified:

      An Integrated Master Schedule (IMS) and an approved Project Management Plan
       (PMP) still does not exist. The lack of a detailed IMS continues to hamper the
       Program. A critical path cannot be defined; overall progress cannot be
       determined; cost expenditures versus accomplishments cannot be measured; and,
       the coordination of development activities is difficult. The ability to ensure
       deployment at the specified date (December 2008) without an IMS is highly
       unlikely.
      The PMO determined that a re-design of the Documentum Repository was
       required because the previous design was deemed to be overly complex and did
       not make the best use of Documentum capabilities. While this decision may be
       the correct one for the overall technical solution, the decision delays the
       completion of system design (i.e., the System Design Document (SDD)) and may
       impact some software components being developed by Harris.
      The Bill of Materials (BOM) for the Test environment has been completed and
       the equipment has been ordered. Because the design is not yet complete, there is
       a technical risk that the equipment ordered for the Test environment will not be
       sufficient to support testing.
      During the quarter, IV&V reviewed the technical requirements and design
       artifacts being developed by the program. While the design is not complete,
       IV&V identified some areas of concern that may become technical risks:
            o The R1C2 requirements baseline is not finalized. The decomposition of
               the system requirements into derived software requirements is complete
               for 11 of the 35 software components. The quality of the derived
               requirements in terms of testability and clarity remains questionable.
               Simultaneous development of requirements and detailed design is a poor
               system development practice that substantially increases the risk of
               mistakes and rework. In addition, a traceability of all requirements to the
               system design (including COTS) has not been performed. Without this


                                              2
               trace, it is very hard to determine if the detailed design satisfies all system
               requirements.
           o The design methodology being used to develop the detailed design is not
               clear. The artifacts that have been generated to-date do not represent a
               consistent flow from the architecture to a detailed design. There is
               currently no established methodology that brings the various artifacts
               (TDF’s, workflows, use cases, CDDs, etc.) together to form a coherent
               design.
      System Integration Test (SIT) planning is directly related to the “engineering
       builds” that will be used to iteratively develop the system. The scope and content
       of these builds have not yet been fully defined. The SIT will be a substantial effort
       requiring many test cases and procedures. Delays in defining these builds may
       impact SIT planning efforts, creating a risk that the SIT plan will not be
       sufficiently detailed to adequately test the system.


2. Schedule Risks Identified

There are a number of FDsys schedule risks that accompany the above technical risks.
Without an IMS, IV&V cannot truly evaluate the program schedule; however, a notional
schedule was presented at the FDsys Program Review Meeting held May 21, 2008. The
deployment date of late 2008 was also presented at the Program Review Meeting held on
July 1, 2008. The following schedule risks have been identified:

      As stated in Section 1, the lack of a detailed plan and IMS is a significant
       schedule risk.
      The scheduled date for conduct of the FDsys R1C2 Detailed Design Review
       (DDR) has been changed twice. Targeted initially for May 2008, DDR was
       pushed out to June 30, 2008 during the May Program Review. DDR was again
       moved to a yet unspecified date in August during the June Program Review.
       Given that the DDR has slipped at least two (2) months since the original plan,
       achieving the goal of a December 2008 deployment is highly unlikely.
      During the May 21, 2008 Program Review the presentation stated that a number
       of plans were scheduled to be delivered during June (including the IMS, PMP,
       Master Test Plan, User and Beta Test Plans, Configuration Management Plan, and
       Training Plan). None of these plans or schedules were completed by June. While
       missing the dates for any of these plans could not be viewed as significant, the
       pattern of missing even notional schedule dates indicates either an insufficient
       schedule development process or a potential lack of schedule discipline. Given the
       already aggressive high-level schedule, any lack of schedule discipline must be
       viewed as a schedule risk to the overall deployment schedule.
      Delays in SIT planning may cause schedule delays.
      The test equipment has not been delivered. The stated schedule for the beginning
       of test (middle of August) is at risk due to delays in delivery of the test
       equipment.



                                             3
       The specifications for only 2 Parsers are complete/underway. Although they are
        expected to be easier than those for the first two collections, the specifications for
        the remaining 23 collections required for R1C2 has not begun. The ability to
        develop all 25 Parsers in time to deploy R1C2 by the end of 2008 is questionable.
        In fact, the Risk Management team has identified Parser development as one of
        the top Program risks.
       A lack of clearly defined security controls and responsibilities creates a schedule
        risk. This risk is discussed in Section 4 of this report.


3. Cost Risks Identified

There are inherent cost risks associated with the technical and schedule risks. Program
cost has been presented at the Program Review meetings with the indication that funds
will be expended by January 2009; however, there is no correlation between the cost to-
date and performance (e.g., amount of total software completed). Since there is no IMS
and PMP and therefore no earned value data, expenditures cannot be evaluated with
respect to Program progress.

       By their nature, cost risks are directly correlated with schedule risks. Any
        schedule increase generally results in additional costs.


4. System Security Plan Evaluation

During this quarter, IV&V performed an evaluation of the FDsys System Security Plan
(SSP). The following risks were identified:

       The confidentiality, integrity and availability protection of FDsys is critical for
        successful operational purposes, regulatory compliance and public confidence.
        The purpose of the GPO FDsys SSP is to provide an overview of the security
        requirements of the system and describe the controls in place or planned for
        meeting those requirements. The GPO FDsys SSP does contain a very methodical
        and detailed list of agency based security requirements that would meet most
        government standards for security. However, it does not explain how those
        security requirements are being implemented, by who (system level, or agency
        level and therefore a common control) and how the agency based security controls
        relate/map to the FIPS 2005 mandated minimum security controls.
       The GPO FDsys SSP should also delineate responsibilities and expected behavior
        of all individuals who access the system. The GPO FDsys SSP fails to clearly and
        concisely provide sufficient detail for the Certification Authority and the
        Authorizing Official to base their initial acceptance and agreement of the security

5
 FIPS 200 is the Federal Information Processing Standards (FIPS) Publication 200,
March 2006, Minimum Security Requirements for Federal Information and Information
Systems.


                                              4
       posture and residual risk associated with FDsys. Failure to clearly define the
       complete system architecture and associated security controls puts the system
       receiving a final Approval To Operate (ATO) in jeopardy and therefore delays the
       operational deployment to the GPO stakeholders, and the public.

The detailed IV&V recommendations related to this task were delivered to the GPO
Chief Information Officer (CIO) in a report dated April 22, 2008 and were briefed to the
CIO and the program manager on April 28, 2008. A summary recommendation from this
task is provided in Section 7 of this report.


5. Assess Design Phase Risk Management Plan and Process

During this quarter, IV&V also performed an assessment of the FDsys Risk Management
Plan (RMP) and Risk Management Process. The findings of the report can be
summarized as follows:

      The PMO has reinstituted an active risk management program. This is a very
       positive development for the overall management of the FDsys program. A good
       risk management program enables a program office to identify and mitigate
       program risks before they become problems.
      The RMP has been updated to reflect the reorganization of responsibilities
       between Harris and the GPO. Risk Review Board (RRB) meetings are being held
       every two weeks, as specified in the RMP. Risk Handling Plans are being
       developed by Risk Owners, and are reviewed by the RRB. The Risk Database is
       being updated and the status of risks are being reviewed and evaluated by the
       RRB.
      A number of specific recommendations for improvement were made for both the
       Risk Management Plan and Risk Management Process.

The IV&V recommendations related to this task were delivered to the GPO CIO in a
report dated July 2, 2008. Following that delivery, IV&V and the FDsys Program
Manager and Risk Manager met to review the recommendations. The specific
recommendations were discussed and many have been adopted by the PMO. The PMO
intends to update their plans and processes to include those recommendations. This
collaborative approach provided more timely improvement to the PMO processes and
will be used in future IV&V reviews of specific program plans and processes.

A single, more general, recommendation from the report is provided in Section 7 of this
report.




                                           5
6. Review SETA Contractor Quick Look Report

Another IV&V task completed during this quarter was an analysis of the Flatirons
Solutions Quick Look Assessment of the GPO FDsys Development Approach. 6 Without
restating the Flatirons report, the findings can be summarized as follows:

       The Concept of Operations cannot be used as a foundation for development.7
       A complete set of system architecture views do not exist.
       Requirement definition and traceability is incomplete.
       Key design features are incomplete.
       Project management artifacts do not exist.
       The BOM may not meet the needs of the incomplete design and the equipment
        may not be available in time for SIT.
       The FDsys PMO needs to align the program around a development methodology.

IV&V agrees with all of these findings.

The report concludes “…that the current approach to deliver a system in CY2008 is not
achievable using the current system artifacts and development methodology.” IV&V
agrees with this conclusion.

The report recommends an Agile8 development methodology for FDsys. While IV&V
agrees that adopting the iterative aspects of Agile would greatly improve the management
and likelihood of success for FDsys, it should not be viewed as a “silver bullet”. Iterative
development with well defined builds is one way for GPO to begin to gain technical and
management control of FDsys. Other aspects of the Agile methodology are typically most
successful with relatively mature development organizations. While GPO and their
contractors might benefit from the Agile methodology, they should not adopt it without
significant training and coaching. Fully adopting Agile at this point in the development of
R1C2 may cause further schedule delays.

Some of the artifacts that result from an Agile methodology, such as user stories, already
exist in a number of different forms (e.g., use cases, workflows, and TDFs). GPO should
try to develop a consistent set of artifacts that are traceable to one another and provide an

6
  Flatirons Solutions was hired in May of 2008 as a Systems Engineering and Technical
Assistance Contractor (SETA). Their first task was to review the current technical and
programmatic state of the FDsys program and provide evaluation and recommendations
for achieving a December 2008 operational system.
7
  The FDsys PMO has never intended the current ConOps to be a departure point for the
design. IV&V’s understanding has been that the ConOps provided a starting point for
requirements development and that certain system concepts have evolved since the
ConOps was developed. The scenarios provided by the ConOps have been replaced by
other artifacts, such as use cases and workflows.
8
  Agile is a software development methodology that focuses on collaborative
development, requirements adaptability and short development iterations.


                                              6
end-to-end solution for FDsys. Perhaps some aspects of the Agile methodology could be
adapted to provide that consistent set of artifacts.

The IV&V recommendations related to this task are provided in Section 7 of this report.

7. Recommendations

   1) IV&V recommends that the recently started program reviews continue on a
      monthly basis. They are both valuable and necessary for program success.

   Management’s Response. Concur. GPO concurs with the recommendation. The
   complete text of management’s response is in Appendix A.

   Evaluation of Management’s Response. Management’s actions are responsive to
   the recommendation. The recommendation is resolved, but will remain
   undispositioned and open for reporting purposes until corrective actions are
   completed.

   2) IV&V recommends that the PMO clearly establish a design methodology that
      shows how all design artifacts being developed consistently flow from the system
      architecture down to the detailed design. The methodology chosen should be
      clearly documented for all engineers and developers.

   Management’s Response. Concur. GPO concurs that the design methodology
   going forward must be established and communicated to the technical team. As
   indicated previously, the plan is to use lessons learned from the first release to
   establish the appropriate methodology for future releases (see Appendix A).

   Evaluation of Management’s Response. Management’s actions are responsive to
   the recommendation. The recommendation is resolved, but will remain
   undispositioned and open for reporting purposes until corrective actions are
   completed.

   3) IV&V recommends that the PMO establish the R1C2 requirements baseline and
      complete the trace of each requirement to the low level component (software
      component, COTS, hardware) within the detailed design that is responsible for its
      implementation.

   Management’s Response. Concur. GPO agrees and the team is working to
   complete the traceability (see Appendix A).

   Evaluation of Management’s Response. Management’s actions are responsive to
   the recommendation. The recommendation is resolved, but will remain
   undispositioned and open for reporting purposes until corrective actions are
   completed.




                                            7
4) IV&V recommends that GPO begin an update to the SSP. Prior to beginning that
   update, the PMO should meet with IV&V to discuss detailed recommendations
   contained in that task report. The PMO should then decide which
   recommendations are appropriate for that update.

Management’s Response. Concur. GPO agrees and the team is working to update
the SSP (see Appendix A).

Evaluation of Management’s Response. Management’s actions are responsive to
the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are
completed.

5) IV&V recommends that the Risk Manager regularly review all IV&V reports for
   identification of additional risks to be tracked in the Risk Database.

Management’s Response. Concur. GPO will commit to including the risk manager
in the distribution for all IV&V materials (see Appendix A).

Evaluation of Management’s Response. Management’s actions are responsive to
the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are
completed.




                                     8
Appendix A. Management’s Response




                9
Appendix A




             10
     Appendix A




11
Appendix A




             12
                  Appendix B. Status of Recommendations


Recommendation No.           Resolved    Unresolved   Open/ECD*   Closed
         1                        X                      TBD
         2                        X                      TBD
         3                        X                     9/11/08
         4                        X                     9/12/08
         5                        X                      TBD

*Estimated Completion Date




                                        13
                       Appendix C. Report Distribution

Public Printer
Chief of Staff
General Counsel
Chief Management Officer
Chief Technology Officer
Chief Acquisition Officer




                                     14
